HHS/OIG-Audit--"Review of Pension Costs at the State Retirement Systems, Springfield, Illinois, (A-05-96-00056)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Review of Pension Costs at the State Retirement Systems, Springfield, Illinois,
(A-05-96-00056)
March 14, 1997
Complete Text of Report is available in PDF format
(79 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides you with the Results of our Review of Pension Costs
charged to Federal Programs for members of the State Retirement Systems (SRS).
The objective of this limited review was to determine whether pension contributions
charged to Federally funded programs were fair and equitable compared to contributions
for State-funded programs.